SUPREME COURT OF THE UNITED STATES
No;

CERTIFICATE OF SERVICE

I, ARTAVIS DESMOND MCGOWAN, hereby certify that on this 23rd day of
January , 2021,1 caused one copy of the Petition for Writ of Certiorari to be served
by U.S. Mail to the United States Solicitor General at U.S. Department of Justice
950 Pennsylvania Avenue, NW Washington, DC 20530-0001.

I further certify that all parties required to be served have been served.

ARTAVIS DESMOND MCGOWAN
Reg. No. 2978-001
PCI TALLADEGA
FEDERAL CORRECTIONAL INSTITUTION
TALLADEGA, AL 35100

20

